             U.S. Small Business Administration
             Office Inspector General                Memorandum
    To: 	    Eric R. Zamikow                                            Date:   December 2, 2009
             Associate Administrator, Office of Capital Access

              /5/ 0(11"11 c<-/ S'J '14:/
  From: 	    Debra S. Ritt 

             Assistant Inspector Gene.ral for Auditing 



Subject: 	   Notice of Finding and Recommendation on Recovery Act Loans Involving Change of
             Ownership Transactions
             ROM-lO-03

              The OlG is conducting an audit of 7(a) loans disbursed pursuant to the American
              Recovery and Reinvestment Act of 2009 (Recovery Act) to determine if the loans
              made under the Act were originated and closed in compliance with SBA's policies
              and procedures and to identify any evidence of suspicious activity. This is the first
              in a series of finding notices related to our ongoing audit that provide the Agency
               with early notification of findings and recommendations related to material
              deficiencies in Recovery Act loans and with the loan approval process. This
               Notice of Finding and Recommendation (NFR) identifies issues with SBA's
               approval of Recovery Act loans involving change of ownership transactions. We
             . made three recommendations to the Associate Administrator for Capital Access to:
               (1) provide training to loan officers on the calculation of goodwill and application
               of change of ownership requirements to loans involving the refinancing of seller
               debt; (2) measure the effectiveness of the loan officer training through a Quality
               Assurance Review process; and (3) establisn a process for granting policy waivers
               approved by the Associate Administrator for Capital Access or higher official that
               provides the necessary independence and is supported by risk-based justifications.

             On November 6,2009, we provided a draft of this NFR to SBA for comment. On
             November 20,2009, SBA submitted its formal comments, which are contained in
             their entirety in Appendix II. Management disagreed that there were deficiencies
             in the three loans involving the proper calculation of goodwill discussed in the
             NFR, but did not specifically address the asset valuation deficiencies identified in
             these loans. Management did agree with our finding for the one loan that was not
             eligible for an SBA guaranty because it did not result in the borrower owning
100 percent of the business. SBA also questioned the statistical validity of
projecting the fmdings to the population of change of ownership transactions.
SBA agreed to provide training to loan officers on change of ownership
transactions, debt refinancing, and goodwill and also agreed to review these types
of transactions in their quality assurance reviews. However, SBA did not agree
that policy waivers for change of ownership transactions need to be approved by
the Associate Administrator for Capital Access as they are loan policy issues that
fall under the responsibility of the Office of Financial Assistance. Nevertheless,
SBA agreed to review the change of ownership policy waiver process in order to
identify possible areas for strengthening.

We continue to support our finding that SBA did not properly calculate the
amount of goodwill funded by three loans in our sample, and will meet with the
Agency and work to resolve any differences in correctly calculating goodwill.
With regard to the statistical validity of our projections, it is important to note that
our findings were not projected to the population of change of ownership
transactions as stated in SBA's comments. Rather, we projected our results to the
population ofSBA-approved 7(a) Recovery Act loans disbursed as of May 31,
2009, from which our sample ono SBA-approved loans was derived. As a result,
we are 90 percent confident that SBA inappropriately approved at least
$6.6 million in SBA loans between February 17,2009 and May 31, 2009. Our
projection was performed by a statistical consultant and is statistically valid.

SBA's plans to provide training on change of ownership transactions, debt
refinancing, and goodwill and to monitor these areas through its quality assurance
process are responsive to recommendations I and 2. While SBA agreed to review
its change of ownership policy waiver process, it did not provide any specifics on
how the process would be strengthened. We continue to support our position that
allowing the Director of the Office of Financial Assistance to approve such
waivers places him in a conflicted position of fostering lender relationships and
assessing risk ofioss on loans. We have repeatedly expressed our concern with
lender oversight functions being organizationally placed within an office whose
mission is to increase small business access to capital through expanding lender
participation.! Also, we believe the current change of ownership waiver process
presents a similar conflict of interest issue. We will seek a management decision
for this reconunendation through the audit resolution process.




I   OIG Report 9~08) Audit of the Liquidation Process at the National Guaranty Purchase Center, January 30, 2009;
    and DIG Report 9-l6, The Small Business Administration's Fiscal Year 2008 Improper Payment Rate/or the 7(a)
    Guaranty Loan Program, July 10, 2009.



                                                                                                          2
We appreciate the courtesies and cooperation of the Office of Capital Access. If
you have any questions concerning this NFR, please call me at 202-205-.                   or
Debra Mayer, Director, Recovery Oversight Group, at 202-205-                    1:.1'<>\4 u-. z.J
                                                                /:1'"0 I A .u.. zJ




 Attachment


                                                                                           3
                         u.s. Small Business Administration
                              Office of Inspector General


                         Nonce of Finding and Recommendation


Audit LocationIDivision       Office of. Capital Access

Date 	                        December 2, 2009

Description of Issue 	        SBA did not adequately review and approve Recovery
                              Act loans involving change of ownership transactions and
                              the financing of goodwill.

BACKGROUND:

The purpose of this Notice of Finding and Recommendation (NFR) is to advise you of an
issue that was identified during our ongoing audit of7(a) loans disbursed under the
American Recovery and Reinvestment Act of 2009 (Recovery Act). As part ofthis audit,
we reviewed 30 SBA approved loans, of which 9 involved "change of ownership"
transactions.

CONDITION:

We identified deficiencies in SBA's approval of four of the nine Recovery Act loans in
our sample that funded change of ownership transactions. These four loans totaled
approximately $2.1 million. One loan was not eligible for an SBA guaranty because it
did not result in the borrower owning 100 percent of the business, as required under
Standard Operating Procedure (SOP) 5010 5(a). Eligibility for the other three loans was
questionable due to the excessive amount of goodwill financed in each transaction. We
found that SBA did not properly calculate the amount of goodwill funded by these three
loans. In perfonning the calculations correctly, we found that these loans included
goodwill of80 to 86 percent of the loan amounts and up to $657,000, significantly
exceeding SBA's goodwill limitations. Due to its miscalculations, SBA was not aware
that it approved two loans which had exceeded the goodwill limitations. For the third
loan, SBA provided an official waiver to the goodwill policy, hut calculated the amount
of goodwill to be 65 percent, or $522,587, when it was actually 82 percent, or $657,000.
Furthennore, SBA provided this waiver without the infonnation required to make an
infonned, risk-based decision.

CRITERIA:

SBA SOP 50 10 5(a) requires a loan involving the refinancing of seller debt to be treated
as a change of ownership transaction. The transaction is not eligible for an SBA guaranty
if the borrower will not own 100 percent of the business it is purchasing.



                                                                                    4
SBA SOP 50 10 5(a) states that under a change of ownership transaction, the lender may
finance a limited amount of goodwill, but that in no event may the amount of goodwill
financed by an SBA-guaranteed loan exceed 50 percent of the loan amount up to a
maximum of$250,000.

SBA SOP 50 10 5(a) states that ifthe valuation of fixed assets is greater than their
depreciated value, an independent appraisal must be obtained to support the higher
valuation.

SBA Information Notice 5000-1096 provided additional guidance on SBA's policy
related to the financing of goodwill. The notice gave lenders the option to submit loans
that exceeded goodwill limitations to SBA for loan approval consideration. The notice,
however, required lenders to submit certain documentation with their requests to SBA,
including:

    ..   A detailed explanation of the circumstances that prevented the seller and/or buyer
         from meeting the SOP requirements for financing the balance of goodwill;
    ..   A business valuation, as required in SOP 50 10 5(a);
    ..   Any appraisals used to establish the value of real estate and/or equipment;
    ..   The name and address of any broker involved in the transaction and the fee
         charged for their services; and
    ..   Any other information needed to process the application.

The notice also defined goodwill for change of ownership transactions structured as asset
purchases as the selling price minus the sum of the book value of all assets being
purchased.

CAUSES:

SBA treated one loan as a traditional debt refinance rather than a change of ownership
transaction, as required when a lender is refinancing seller debt. Had SBA evaluated this
loan as a change of ownership, the analysis would have shown that the transaction did not
result in the borrower owning 100 percent of the business, in violation of SOP 5010 Sea).

For the other three loans, SBA did not properly calculate the amount of goodwill
included in the change of ownership transactions which were structured as asset
purchases. Specifically, SBA overstated the value of assets being purchased in the
transactions because it did'not adjust the assets to their book value, as required, and
accepted the inflated values provided in the purchase agreements or seller asset lists.

Furthermore, a waiver provided by the Director of SBA's Office of Financial Assistance
(OFA) for one of these loans was based on incomplete and inaccurate information
provided by the SBA loan processing center, which prevented the Director from making
an informed, risk-based decision. The center did not provide complete or accurate
infonnation on the amount of goodwill being financed and the payment of an excessive
broker fee from working capital loan proceeds. Lastly, because the Director of OF A is


                                                                                          5
responsible for lender relations, approving the waiver placed him in a conflicted position
of fostering lender relationships and assessing risk of loss on the loan.

EFFECT:

Based on SBA's approval of these four loans valued at $2.1 million, we project that SBA
inappropriately approved at least $6.6 million in SBA loans between February 17,2009
and May 31, 2009. These approvals will (I) increase the risk ofloss to SBA if these
loans default, and (2) reduce the availability of SBA loans to other lenders and eligible
borrowers.

RECOMMENDAnONS;

We recommend that the Associate Administrator for Capital Access:

    I. 	 Provide training to loan officers on (I) the calculation of goodwill and the
         importance of adjusting assets to their book values or appraised values in
         performing their calculations, and (2) applying change of ownership requirements
         to loans involving the refinancing of seller debt.

    2. 	 Measure the effectiveness of the loan officer training through a Quality Assurance
         Review process.

    3. 	 Establish a process for granting policy waivers approved by the Associate
         Administrator for Capital Access or higher official that provides the necessary
         independence and is supported by risk-based justifications.




                                                                                       6
APPENDIX I. INELIGIDLE LOANS INVOLVING CHANGE OF OWNERSHIP
            TRANSACTIONS

  Loan Number       I              Loan Name   Loan Amouut
                                                 $600,000
  C~(JiA   cx.,z3       . C fOIA   -LX   ,4J     $293,300
                                                 $363,000
                                                 $800,000
     Total          I                           $2,056,300




                                                         7
     APPENDIX II. AGENCY COMMENTS 





.~
 .,
.•
    '"
      •	 	                       U.S. SMAll. BUSINESS ADMINISTRATION
                                          ~ASH~N.O~C~20416

~            ~"
 '.\~l$"t'y:.""



          DATE: 	      November 16, 2009
              TO: 	    Debra S. Ritt 

                       Assistant Inspector General fuv Auditing 


         FROM: 	       Eric R. Zarmkow     U'6IA   a.. I.] 

                       Associate Administratbr>ortJil'pitM Access 


     SUBJECT: 	        Draft Notice ofFinding and Recommendation on Recovery Act Loa:n.
                       Involving Change of O • .,uership Transactions, Pl:qject No. 9'S12A


        Thank you fur the opportunity to comment on the Draft Notice ofFinding a:nd
        Recommendation on Recovery Act Loans Inv"l'!ing Change Gf Ownership Transactions..

        We appreciate that the Office ofthe Inspector General bas given us a quick """J>'>US" and
        feedbank on the Recovery Act loans involving change ofownership. DCA partially
        agrees wi.th O1O's findings included in the report. In three ofthe fuur cases outlined in
        your notice, DCA: di.sagrees ....- ith OIG's conclusions that an improper decision was made.

        Although the office l<greeS with Ihe recommendations regarding staff training and quai.i:ty
        assurance we disagree wilh the recommendation~gthe need to establish a process
        fur granting policy waivers ontside of Ihe c;w:rent standard operating procedure.

        In reviewing !he Draft Report DCA does not agree with Ihe detenninati.on that there were
        deficiencIes in SBA's approval of four of the nine Recovery Act loans in your sample
        that funded change ofownership transactions. A review ofthe loa:ns proceseed by the
        center indicates that only one oflhe fuur loa:ns was processed incorrectly. We wonld
        welcome the opportunity to discuss Ihe diffuren~ in analysis ofthe remaining cases in
        your sample.                                      .

        At the same time. OCA does not know, or at least the report does not address, the
        statisdeal validity of projecting these fmdings to the population ofchange of ownership
        transactions.

        That said, OIG identified some issues that OCA believes should be addressed.. 'The center
        "-ill continue to provide !raining on these important areas oflendi.ng. and will monitor
        them through its quality assurance process.

              • 	 Updated training will be conducted in the 7(a) processing centers on change of
                  ownership transactions. debt refinancing and good:1l\'ill.




                                                                                                       8
   • 	 Review ofthese types oftra:nsaclions will be included in OCA's quality assurance
       plan and additional training provided, as appropriate.

OCA does not agree that policy waivm:s fur cbense ofownemhip lra:nsacnons need to be
approved by th~ A,VCA It is appropriate for !hi: DropA to maJ..-e these ~Iernrlna!ions
as they are issues ofloan policy and therefure flill under the responsibility ofthe Office of
Financial Assistance. However, OCA will review th~ change ofownership policy waiver
process in order to identilY possible ways to strengthen the process.




                                                  •



                                              2



                                                                                                9
